C@OCKLE

Legal Briefs
Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

E-Mail Address:
contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

No. 19-54

KAROLYN GIVENS, et al.,
Petitioners,
v.
MOUNTAIN VALLEY PIPELINE, LLC,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
PUBLIC LAW SCHOLARS AND CONCERNED LANDOWNERS IN SUPPORT OF PETITION
FOR A WRIT OF CERTIORARI in the above entitled case complies with the typeface requirement
of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text
and 10 point for the footnotes, and this brief contains 5654 words, excluding the parts that are

exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 8th day of August, 2019.
[am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

on ben C Olt Qudeow-h, Chk

My Commission Expires Nov 24, 2020

 

Notary Public Affiant 38507

 
